APPENDIX TABLE OF CONTENTS
Opinions and Orders
in the 2019-2021 Proceedings
Opinion of the United States Court of Appeals for
the Fourth Circuit (February 25, 2021)........... la
Memorandum Opinion of the United States
District Court for the District of Maryland
(March 4, 2020)............. ......................... .

3a

Order of the United States District Court for the
District of Maryland (March 5, 2020)............. 29a
Letter Order of the United States District Court
for the District of Maryland (April 15, 2019).. 31a
Letter Order of the United States District Court
for the District of Maryland Motion to
Remove Judge Paul Grimm (April 9, 2019).... 35a
Other Documents
in the 2019-2021 Proceedings
Informal Briefing on United States Court of
Appeals for the Fourth Circuit
(April 28, 2020).........................................
Plaintiff Emmanuel Edokobi By Himself as a
Pro Se (“Plaintiff’) Files a Motion for the
Removal of Judge Paul W. Grimm from
Hearing Civil Case 8:19-CV-00248-PWG
Edokobi v. Toyota Motor Credit Corporation et
al Pursuant to Disability Act of 1980, 28 U.S.C.
§§ 351-364 (“Act”), and Rules for JudicialConduct and Judicial-Disability

37a

APPENDIX TABLE OF CONTENTS (Cont.)
Proceedings, 248 F.R.D. 674 (2008)
(April 5, 2019)...................... ......

67a

Civil Action Complaint Against Judge Paul W.
Grimm United States District Judge
(February 25, 2019).............. ....... ....................... 71a
Opinions and Orders
in the 2014-2015 Proceedings
Opinion of the United States Court of Appeals for
the Fourth Circuit (March 19, 2015).... ....... . 93a
Letter Order of the United States District Court
for the District of Maryland
(December 3, 2014)....................... ........ ......... . 95a
Other Documents
in the 2014-2015 Proceedings
Defendants’ M&M Mortgage Services Inc. and
Juan Gonzalez, Motion for Sanctions
(June 9, 2016)............ ...................................... . 97a
Plaintiff files Opposition Motion to Defendants’
M&M Mortgage Services Inc., and Juan
Gonzalez Motion for Sanctions
(June 23, 2014)
101a
Defendants’ M&M Mortgage Services Inc. and
Juan Gonzalez, Reply to Plaintiffs Opposition
to Defendant’s Motion to Dismiss the
Plaintiffs Complaint (May 1, 2014)
116a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(FEBRUARY 25, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
EMMANUEL EDOKOBI,
Plain tiff-Appellan t,
v.
JUDGE PAUL W. GRIMM,
Defendants-Appellee.
No. 20-1271
Appeal from the United States District Court for the
District of Maryland, at Greenbelt. George Jarrod
Hazel, District Judge. (8:19-cv-00905-GJH)
Before: MOTZ, KEENAN, and HARRIS,
Circuit Judge.
PER CURIAM:
Emmanuel Edokobi appeals the district court’s
order denying his motion for recusal and granting
Defendant’s motion to dismiss his civil action. We
have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the
district court. Edokobi v. Grimm, No. 8:19-cv-00905GJH (D. Md. Mar. 4, 2020). We dispense with oral argu-

App.2a
ment because the facts and legal contentions are
adequately presented in the materials before this court
and argument would not aid the decisional process.
AFFIRMED

App.3a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(MARCH 4, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
EMMANUEL EDOKOBI,
Plaintiff,
v.
JUDGE PAUL W. GRIMM,
IN HIS INDIVIDUAL AND OFFICIAL CAPACITIES,

Defendant.
Case No.: GJH-19-905
Before: George J. HAZEL, United States District
Judge.
Plaintiff Emmanuel Edokobi (“Plaintiff’) brought
this pro se action in the Circuit Court for Montgomery
County, Maryland against U.S. District Judge Paul
W. Grimm (“Judge Grimm”) in his individual and
official capacities.! ECF No. 3. Plaintiff alleges that
1 The Court recognizes the potential conflict in resolving a case
involving one of its colleagues. However, given that it is clear that
no reasonable jurist could find legal merit in Plaintiffs claims,

App.4a

Judge Grimm has violated his rights under the federal
and Maryland Constitutions by failing to issue a final
order with respect to a prefiling injunction against
Plaintiff that Judge Grimm proposed in a case Plaintiff
filed in 2013. ECF No. 3. Judge Grimm removed
Plaintiffs Complaint to this Court, ECF No. 1, and
has now moved to dismiss it on multiple grounds,
ECF No. 12. Plaintiff has opposed the Motion to Dismiss
and has filed a motion to disqualify Judge Grimm
from two other pending cases by Plaintiff over which
he is presiding. No hearing is necessary. See Loc.
Rule 105.6. (D. Md.). For the following reasons, the
Court will deny Plaintiff s motion to disqualify Judge
Grimm and will grant Defendant’s Motion to Dismiss
this case.
I.

Background

Because Plaintiffs pro se Complaint is at times
difficult to read and largely recounts proceedings in
prior litigation, the Court will take judicial notice of
filings in those cases and describe their contents here,
adding allegations from the Complaint when relevant.
See Strickland-Lucas v. Citibank, NA., 256 F. Supp.
3d 616, 623 (D. Md. 2017) (explaining that courts
may take judicial notice of docket entries, pleadings,
and papers in other cases without converting a motion
to dismiss to one for summary judgment). On Decem­
ber 9, 2013, Plaintiff filed a Complaint in this Court
against M & M Mortgage Services Inc. (“M & M”), its
account manager Juan Gonzalez, and a second corpora­
tion, Mortgage Specialist Inc. Complaint, Edokobi v.
M & MMortg. Servs., Inc., No. PWG-13-3707 (Dec. 9,
the Court will spare a sister jurisdiction the burden of having
this matter transferred to it and will resolve the claim herein.

App.5a

2013) (“M&M’), ECF No. 1.2 The suit was assigned
to Judge Grimm. M & M and Gonzalez moved to dis­
miss the case and for sanctions against Plaintiff, who
opposed both motions. M&M, ECF Nos. 5, 12, 13,
14, 16, 17. Plaintiff also filed a Motion for Default
Judgment against Mortgage Specialist Inc. after it
failed to appear. ECF No. 15.
On October 22, 2014, Judge Grimm issued a
Memorandum Opinion and an Order disposing of the
motions. M&M, ECF No. 19; Edokobi v. M&MMortg.
Servs., Inc., No. PWG-13-3707, 2014 WL 5393527 (D.
Md. Oct. 22, 2014). The Opinion recounted the facts
alleged in Plaintiffs Complaint in that case, which
centered around a single-family home that Plaintiff
owned in Potomac, Maryland. M & MMortg. Servs.,
2014 WL 5393527, at *1. According to the Complaint,
the defendants, under orders from loan servicing
company Litton Loan Servicing LP (“Litton”), inspected
the property^ winterized and locked the house, and
removed Plaintiffs belongings. Id. Plaintiff had sued
Litton for those acts in 2011 but the Court granted
summary judgment in Litton’s favor. Id. Plaintiff had
then filed suit against eight financial institutions
alleging that they were responsible for the acts at the
Potomac property, but that case was dismissed with
prejudice. Id.3 In the new case before Judge Grimm, the
2 Plaintiffs Complaint erroneously asserts that the case was
filed on November 13, 2013. ECF No. 3 f 14.
3 Plaintiff also sued Judge Motz of this Court, who presided
over the case against Litton and the subsequent case against the
eight financial institutions. M&M Mortg. Servs., 2014 WL
5393527, at *3. Judge Chasanow dismissed that case with
prejudice. Edokobi v. Motz, No. DKC-13-3378, 2013 WL 6713290

App.6a
Opinion explained, Plaintiff contradicted the allega­
tions he made in the 2011 case and alleged that his loan
was serviced not by Litton but by another company,
and that Litton therefore had no authority to order
the defendants to perform the work. Id. Plaintiff
asserted eleven counts against the defendants under
Maryland law. IdA
Judge Grimm granted the defendants’ Motion to
Dismiss on the ground that res judicata barred the
action. Id. at *5. In short, because the parties had
agreed in the 2011 case that Litton serviced Plaintiffs
mortgage at the time of the work on the house, and
agreed before Judge Grimm that the defendants were
acting at Litton’s direction when they performed the
work, the Court’s finding in the 2011 case that Litton
was not liable to Plaintiff barred relitigation of the
defendants’ liability for acting on Litton’s behalf. IdI
Judge Grimm then turned to the defendants’ motion
for sanctions. Id. Rather than grant the motion,
Judge Grimm found that Plaintiff s filings to that
point, many of which were both voluminous and noncompliant with the Federal Rules of Civil Procedure,
(D. Md. Dec. 18, 2013); see also M & M Mortg. Servs., 2014 WL
5393527, at *3 (describing Judge Chasanow’s ruling).
4 In his Complaint in this case, Plaintiff adds further allegations
that the defendants destroyed pipes and caused leaks in the
house by using unconventional weatherization chemicals, requiring
him to spend $32,000 for repairs, and that defendants also changed
the locks and did not leave contact information, all of which
impeded his ability to sell the house. ECF No. 3 It 15, 17-19,
24-26.
5 Notably, Plaintiff in this action alleges once again that Litton
was his loan servicer, but claims that Litton told him that it did
not order the weatherization. ECF No. 3 ft 20-21.

App.7a
demonstrated that he is a vexatious litigant. Id. at
*1, *5-*6. Judge Grimm accordingly ordered Plaintiff
to show cause why the Court should not issue an order
imposing a prefiling injunction that would direct the
Clerk not to accept future filings from Plaintiff arising
out of or relating to the work performed at his
property unless Judge Grimm certified that the filings
were in good faith and had a colorable basis in law
and fact. Id. at *6. Judge Grimm then dismissed the
case in its entirety and accordingly denied as moot
Plaintiffs Motion for Default Judgment against Mort­
gage Specialist Inc. Id. at *1 n.2.
On November 3, 2014, Plaintiff submitted two
filings to the Court: a Notice of Appeal of Judge
Grimm’s Order, M & M, ECF No. 20, and a filing
entitled “Plaintiff Files Opposition Motion To Court
Order Granting Defendants’ Motion To Dismiss
Plaintiffs Complaint And Opposition To Court Proposed
Imposition Of Pre-Filing Injunction And Opposition To
Court Order Dismissing Plaintiffs Motion For Default
Judgment Against MSI And Plaintiff By This Motion
Seeks New Trial Of Civil Action No. 8:13-CV-03707PWG,” M & M, ECF No. 22. As the defendants noted
in response, the motion essentially sought recon­
sideration of Judge Grimm’s October 22, 2014 deci­
sion. M & M, ECF No. 24. On December 3, 2014,
Judge Grimm issued a Letter Order explaining that
PlaintifPs Notice of Appeal had divested him of jurisdic­
tion over the case. M & M, ECF No. 25 (citing Griggs
v. Provident Discount Co., 459 U.S. 56, 58 (1982)). The
Letter Order also stated that Judge Grimm would not
“take further action regarding the pre-filing injunc­
tion until the Fourth Circuit has issued its ruling.”
Id.

App.8a

The Fourth Circuit issued an unpublished per
curiam opinion affirming Judge Grimm’s October 22,
2014 Order on March 19, 2015. Edokobi v. M & M
Mortg. Servs., Inc., 597 F. App’x 754 (4th Cir. 2015).
The decision noted that it concerned only the order
dismissing the case on res judicata grounds and that
the prefiling injunction determination remained pend­
ing in this Court. Id.; id. at n.*. The Fourth Circuit’s
mandate took effect and was filed on this Court’s
docket on May 4, 2015. M&M, ECF No. 29. Since that
time, Judge Grimm has not taken additional action
in the case and has not issued a further determina­
tion with respect to the proposed prefiling injunction.
Plaintiff filed his Complaint in this action in
Maryland state court on February 25, 2019. ECF No.
3. In addition to repeating allegations from Plaintiffs
earlier cases about the work at the Potomac property,
the Complaint asserts that Judge Grimm: “Sees Plain­
tiff As A Trouble-Maker Who .. . Must be Controlled”
with a prefiling injunction; “Wanted to Satisfy the
Demands of the Corporate Attorneys”; “Did Not Con­
sider all those Valid Points that Plaintiff had raised
in Plaintiffs Motion in Opposition” to the motion for
sanctions; “Does Not Want to Consider The United
States Court of Appeals For The Fourth Circuit’s Per
Curiam on the Appeal. . . which says that ‘Prefiling
Injunction Determination Remains Pending in the
District Court”’; “Does Not Want to Provide the Clo­
sure of the Civil Action”; “Refused to Issue His Final
Order on the ‘Prefiling Injunction Against Plaintiff
Pending in the District Court’”; “Wants to Punish
Plaintiff by [his] Refusal to bring to a Closure the
Prefiling Injunction Against Plaintiff which is Pending
in the District Court Since December 12, 2014”; and

App.9a
“Does Not Want to Issue His Final Orders on the
Prefiling Injunction Determination Remains Pending
in the District Court because; Defendant Paul W.
Grimm Knows Even-too-well that; Plaintiff Will Appeal
Defendant Paul W. Grimm’s Negative Orders.” Id.
34, 36, 37, 39-42.
The Complaint then asserts five “causes of action”
against Judge Grimm, each of which is premised on
his “Refusal to Issue the Final Court Order on the
Prefiling Injunction Against Plaintiff Pending in the
District Court Since December 12, 2014 for Civil Case
Number Case 8:13-cv-03707.” Id. HI 45, 55, 61, 73, 78.
Count 1 is a claim under 42 U.S.C. § 1983 for violation
of Plaintiffs Fourteenth Amendment due process
rights. Id. til 44-47. Count 2, also brought under § 1983,
again states that Judge Grimm violated Plaintiffs
Fourteenth Amendment due process rights and further
alleges that he violated Plaintiffs due process rights
under Article 24 of the Maryland Declaration of Rights.
Id. 11 51-54. Count 3 is an additional § 1983 claim
asserting that Judge Grimm’s “Refusal To Issue His
Final Order on the Prefiling Injunction . . . is designed
to Punish Plaintiff severely” and accordingly has
violated Plaintiffs Eighth Amendment right against
cruel and unusual punishments. Id. HU 60-61.
Count 4, titled “abuse of power and judicial miscon­
duct,” asserts again that Judge Grimm “Sees Plaintiff
As A Trouble-Maker Who; Must Be Controlled,” and
“Did Not Consider all those Valid Points that Plaintiff
had raised” in his opposition to the motion for sanctions.
Id. HH 69-71. Plaintiff also asserts that he “Did Not
Deserve To be Sanctioned” and has been “harmed
and incurred severe emotional damages” as a result of
“these violations,” including Judge Grimm’s “Refusal to

App.lOa
Issue the Final Court Order on the Prefiling Injunc­
tion.” Id.
72-74. Finally, Count 5 asserts that Judge
Grimm has violated Plaintiffs due process rights under
the Fifth Amendment, as a result of which Plaintiff
has been “harmed and incurred severe emotional
damages.” Id.
77-78, 82. In each count, Plaintiff
states that he “is suffering and will continue to suffer
irreparable harm” while he awaits action from Judge
Grimm. Id. H 55, 65, 69, 73, 80.
In the Complaint’s petition for relief, Plaintiff
states that he seeks: a declaration that Judge Grimm’s
“Refusal to Issue a Final Order on the Prefiling
Injunction Against Plaintiff... violates Plaintiffs Due
Process” and “amounts to punishment against
Plaintiff;” a declaration that Judge Grimm “Should Not
Be Involved In Any Civil Case Involving Plaintiff’ in
this court, including a case “Against Toyota Motor
Credit Corporation,” for which Plaintiff seeks a declara­
tion that it “Should Be Handled by a Different
Judge”; and “A declaratory Damages-Compensatory
and Judgment-Declaratory against Judge Paul W.
Grimm.” Id. at 13-14. While the final line of the petition
is somewhat vague as to whether it seeks damages,
the introduction to the Complaint states clearly that
“Judge Paul W. Grimm is sued for damages in his
personal and official capacities.” Id. ^ 3.
Judge Grimm filed a Notice of Removal of the
case to this Court on March 27, 2019. ECF No. 1. In
the Notice, counsel for Judge Grimm, an Assistant
United States Attorney in the Office of the United
States Attorney for the District of Columbia, explained
that he did not currently represent Judge Grimm in
an individual capacity and that Judge Grimm was
not waiving any defenses “that may be available to

App.lla
him under Federal Rule of Civil Procedure 12 or other­
wise, including immunity from suit.” Id. at 1 n.l. Plain­
tiff did not contest the removal but did file “objections”
to the contents of the civil cover sheet filed by Judge
Grimm, asserting that it was mistaken in reporting
that the case was against the federal government
and that it should have categorized the case as a civil
rights action. ECF No. 6. Plaintiff also protested that
the cover sheet failed to show that he had requested
a jury trial in his Complaint. Id.
On May 3, 2019, Plaintiff filed a motion seeking
to disqualify Judge Grimm from presiding in two
other cases that Plaintiff has filed in this Court. ECF
No. 10. Judge Grimm did not respond to the motion.
On May 10, Judge Grimm filed a Consent Motion for
Extension of Time to File Answer until June 10,
2019. ECF No. 11. Counsel for Judge Grimm explained
that he now represented Judge Grimm in his individual
capacity and that his delay in filing was because he
had been awaiting approval for the representation
from the Administrative Office of the U.S. Courts. Id.
If 2. On June 7, 2019, Judge Grimm filed a Motion to
Dismiss the case under Federal Rules of Civil Procedure
12(b)(1), 12(b)(5), and 12(b)(6). ECF No. 12.
Accompanying the Motion was a certification
under 28 U.S.C. § 2679(d) by Daniel F. Van Horn,
the Chief of the Civil Division of the Office of the
United States Attorney for the District of Columbia
(“Van Horn Certification”). ECF No. 12-1. In the cert­
ification, Van Horn, acting under authority delegated
by the Attorney General of the United States, certified
that Judge Grimm was acting within the scope of his
employment at the time of the incidents alleged in
Plaintiffs Complaint. ECF No. 12-1. Plaintiff filed a

App.l2a

brief in opposition to the Motion to Dismiss on June
14, 2019, EGF No. 14, and Judge Grimm filed a Reply
on July 3, ECF No. 16, after submitting another
consent motion for an extension on June 28, 2019,
ECF No. 15.
II.

Standard of Review

“A district court should grant a motion to dismiss
for lack of subject matter jurisdiction under Rule
12(b)(1) ‘only if the material jurisdictional facts are
not in dispute and the moving party is entitled to
prevail as a matter of law.”’ Upstate Forever v. Kinder
Morgan Energy Partners, L.P., 887 F.3d 637, 645 (4th
Cir. 2018) (quoting Evans v. B.F. Perkins Co., 166 F.3d
642, 647 (4th Cir. 1999)). “The burden of establishing
subject matter jurisdiction rests with the plaintiff.”
Demetres v. East West Constr., 776 F.3d 271, 272 (4th
Cir. 2015). “When a defendant challenges subject mat­
ter jurisdiction pursuant to Rule 12(b)(1), ‘the district
court is to regard the pleadings as mere evidence on the
issue, and may consider evidence outside the pleadings
without converting the proceeding to one for summary
judgment.”’ Evans, 166 F.3d at 647 (quoting Richmond,
Fredericksburg & Potomac R.R. Co. v. United States,
945 F.2d 765, 768 (4th Cir. 1991)).
To state a claim that survives a Rule 12(b)(6)
motion, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.”’ Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). The Court accepts “all wellpled facts as true and construes these facts in the
light most favorable to the plaintiff in weighing the
legal sufficiency of the complaint.” Nemet Chevrolet,

App.l3a
Ltd. v. Consumeraffairs.com, Inc., 591 F.3d 250, 255
(4th Cir. 2009). The Court must also “draw all reason­
able inferences in favor of the plaintiff.” Id. at 253
(citing Edwards v. City of Goldsboro, 178 F. 3d 231, 244
(4th Cir. 1999)). “[B]ut [the Court] need not accept
the legal conclusions drawn from the facts, and . . .
need not accept as true unwarranted inferences,
unreasonable conclusions or arguments.” Id. (first
alteration in original) (quoting Giarratano v. Johnson,
521 F.3d 298, 302 (4th Cir. 2008)). Courts are also
permitted to “consider facts and documents subject to
judicial notice” at the motion to dismiss stage without
converting the motion to one for summary judgment.
Zak v. Chelsea Therapeutics Inti, Ltd., 780 F.3d 597,
607 (4th Cir. 2015) (citing Clatterbuck v. City of
Charlottesville, 708 F.3d 549, 557 (4th Cir. 2013)).
III. Discussion
Judge Grimm’s Motion to Dismiss argues in
favor of dismissal on both immunity and substantive
grounds. The Court considers both types of arguments
after discussing Plaintiff’s motion seeking to force
Judge Grimm to remove himself from presiding over
Plaintiffs other pending cases, to which Judge Grimm
has not responded.
A. Recusal Motion
Though Plaintiff does not use the word “recuse”
in his motion seeking to disqualify Judge Grimm from
his pending cases, the motion “Demands for Removal
of the Civil Case No. 8:19-Cv-00248-PWG and Civil
Case No. 8:19-CV-01071-PWG From Defendant Paul
W. Grimm.” ECF No. 10 f 1. The Court liberally
interprets the pro se filing as a request for Judge

App.l4a

Grimm’s recusal, which is the process through which
a party may seek to remove a judge from a case for
alleged bias, which is what Plaintiff presumably
intends to assert. Plaintiff offers no statutory or
doctrinal basis for his motion, however, and merely
points to the petition for relief in his Complaint and
reiterates that Judge Grimm “Has Not Provided His
Final Decision” on the proposed prefiling injunction.
Id. ^ 2-4, 10.
In general, “[a] motion for recusal is construed
against the affiant because ‘a judge is presumed to be
impartial.’” Poole v. United States, No. RDB-12-0478,
2013 WL 594690, at *3 (D. Md. Feb. 15, 2013) (quoting
Molinaro v. Watkins-Johnson CEIDiv., 359 F. Supp.
474, 476 (D. Md. 1973)). “To be legally sufficient, the
judge’s alleged bias must come from an ‘extrajudicial
source other than what the judge has learned or ex­
perienced from [his] participation in the case.’” Id.
(quoting Sine v. Local No. 992Int’l Bhd. of Teamsters,
882 F.2d 913, 914 (4th Cir. 1989)). “A judge’s opinions in
earlier proceedings ‘almost never constitute a valid
basis for a bias or partiality motion . . . unless they
display a deep-seated favoritism or antagonism that
would make fair judgment impossible.’” Id. (quoting
Liteky v. United States, 510 U.S. 540, 555 (1994)).
Plaintiff has failed to show any grounds for
recusal here. Judge Grimm’s rulings reveal no evidence
whatsoever of favoritism or antagonism of any kind.
See id. Nor has Plaintiff provided any evidence that
Judge Grimm has been influenced by any “extrajudicial
source other than what [he] has learned or experienced”
in presiding over Plaintiffs earlier case. Id. (quoting
Sine, 882 F.2d at 914). “A judge’s actions or experience
iri a case or related cases or attitude derived from his

App.l5a
experience on the bench do not constitute a basis to
allege personal bias.” Sine, 882 F.3d 913 (citing Shaw
v. Martin, 733 F.2d 304, 308 (4th Cir. 1984)). Because
Plaintiff lacks any basis to seek Judge Grimm’s
removal from Plaintiffs other pending cases, Plaintiffs
recusal motion will be denied.
B. Motion to Dismiss
The Court now turns to Judge Grimm’s Motion to
Dismiss Plaintiffs Complaint under Rules 12(b)(1)
and 12(b)(6). ECF No. 12.6 The Motion offers several
grounds for dismissal of Plaintiffs claims against
Judge Grimm in both his official and individual
capacities. The Court discusses each set of argu­
ments in turn, but first reviews the different avenues
through which an individual government official may
be held liable for actions causing harm to a Plaintiff.
The Court then considers Plaintiffs claim for “abuse
of process” before turning to Plaintiffs constitutional
claims against Judge Grimm.
1. Official and Individual Capacity Claims
As the Supreme Court explained recently in Lewis
v. Clarke, “[i]n an official-capacity claim, the relief
sought is only nominally against the official and in
fact is against the official’s office and thus the sovereign
itself.” 137 S. Ct. 1285, 1291 (2017). “The real party
in interest” in official capacity suits “is the govern­
ment entity, not the named official.” Id. “Personal6 Judge Grimm also moves to dismiss the claims against him in
his individual capacity under Rule 12(b)(5) for failure to
properly effect service. ECF No. 12 at 18-19. Because the Court
concludes that the Complaint should be dismissed under Rules
12(b)(1) and 12(b)(6), the Court need not reach this argument.

App.l6a
capacity suits, on the other hand, seek to impose
individual liability upon a government officer for ac­
tions taken under color of state law.” Id. (quoting
Hafer v. Melo, 502 U.S. 21, 25 (1991)). “‘[0]fficers sued
in their personal capacity come to court as individuals,’
and the real party in interest is the individual, not
the sovereign.” Id. (alteration in original) (quoting
Hafer, 502 U.S. at 27) (citation omitted).
“The identity of the real party in interest dictates
what immunities may be available. Defendants in an
official-capacity action may assert sovereign immunity.”
Id. (citing Kentucky v. Graham, 473 U.S. 159, 167
(1985)). “An officer in an individual-capacity action,
on the other hand, may be able to assert personal
immunity defenses, such as, for example, absolute
prosecutorial immunity in certain circumstances.” Id.
(citing Van de Kamp v. Goldstein, 555 U.S. 355, 34244 (2009)). “But sovereign immunity ‘does not erect a
barrier against suits to impose individual and personal
liability.’” Id. (quoting Hafer, 502 U.S. at 30-31).
2. Van Horn Certification and Plaintiffs
Common Law Claim
The Van Horn Certification, which was filed pursu­
ant to 28 U.S.C. § 2769(d), also bears on the proper
analysis of the Complaint. ECF No. 12-1. 28 U.S.C.
§ 2679, a provision of the Federal Employees Liability
Reform and Tort Compensation Act of 1988, commonly
known as the Westfall Act, “accords federal employees
absolute immunity from common-law tort claims
arising out of acts they undertake in the course of
their official duties.” Osborn v. Haley, 549 U.S. 225,
229 (2007) (citing 28 U.S.C. § 2679(b)(1)). “When a
federal employee is sued for wrongful or negligent

App.l7a

conduct, the Act empowers the Attorney General to
certify that the employee ‘was acting within the
scope of his office or employment at the time of the
incident out of which the claim arose.’” Id. at 229-30
(quoting § 2679(d)(1), (2)). “Upon the Attorney General’s
certification, the employee is dismissed from the action,
and the United States is substituted as defendant in
place of the employee. The litigation is thereafter
governed by the Federal Tort Claims Act (FTCA), 60
Stat. 842.” Id. at 230; see also id. at 241.7
Notably, the certification by the Attorney General,
or the official to whom he has delegated certification
authority, is not dispositive of whether the employee
was in fact acting within the scope of his office and in
turn whether the United States must be substituted
as the defendant in any common-law tort claims. Id.
at 245-46 (citing Gutierrez de Martinez v. Lamagno,
515 U.S. 417, 432 (1995)). “A plaintiff may request
judicial review of the Attorney General’s scope-ofemployment determination.” Id. at 246. But Plaintiff
has not done so here, nor has he asserted that the
actions by Judge Grimm on which Plaintiffs Complaint
focuses were not within the scope of his employment
as the District Judge presiding over Plaintiffs case.
The Court accepts the Van Horn Certification that
Judge Grimm was acting within the scope of his
employment as an officer of the United States at the
time of the incidents described in Plaintiffs Complaint.
7 Importantly, while the FTCA provides a waiver of the federal
government’s sovereign immunity for certain types of damages
claims, it does not waive immunity as to any other form of
relief. Talbert v. United States, 932 F.2d 1064, 1065-66 (4th Cir.
1991); see also Shirvinski v. U.S. Coast Guard, 673 F.3d 308,
316 (4th Cir. 2012).

App.l8a
ECF No. 12-1. Accordingly, the Court will treat the
United States as the Defendant with respect to any
common law tort claims asserted in Plaintiffs Com­
plaint.
It is not entirely clear, however, whether the
Complaint in fact asserts any common law tort claims
for which the United States should be substituted. As
noted previously, the Complaint asserts five “causes of
action” against Judge Grimm. These include claims
under 42 U.S.C. § 1983 for violation of: Plaintiffs due
process rights guaranteed by the Fourteenth Amend­
ment to the U.S. Constitution; his due process rights
guaranteed under Article 24 of the Maryland Declara­
tion of Rights; and his right against cruel and unusual
punishments guaranteed by the Eighth Amendment
(Counts 1, 2, and 3). Plaintiff also brings a claim of
“abuse of power and judicial misconduct” (Count 4) and
a claim asserting violation of Plaintiffs due process
rights under the Fifth Amendment without reference
to § 1983 (Count 5). The only claim resembling a state
common law tort action is Count 4, for which Plaintiff
claims that he has “been harmed and incurred severe
emotional damages.” ECF No. 3 f 74.8
Judge Grimm reads that count as attempting to
assert a state law claim for abuse of process. ECF No.
12 at 9. “Under Maryland law, an action for abuse of
process provides a remedy ‘for those cases in which
legal procedure has been set in motion in proper form,
® Judge Grimm’s Motion also reads the Complaint to assert a claim
for intentional infliction of emotional distress. ECF No. 12 at
15-16. While the Court appreciates efforts by the counterparties
of pro se litigants to read their filings expansively, the Court
sees no such claim in the Complaint.

App.l9a
with probable cause, and even with ultimate success,
but nevertheless has been perverted to accomplish
an ulterior purpose for which it was not designed.”’
Metro Media Entm’t v. Steinruck, 912 F. Supp. 2d
344, 350 (D. Md. 2012) (quoting One Thousand Fleet
Ltd. P’ship v. Guerriero, 694 A.2d 952, 956 (Md. 1997)).
The Court agrees that to the extent Count 4 asserts a
cognizable claim of any kind, it is an abuse of process
claim under Maryland law. Because the United States
is the proper Defendant in this claim, the Court must
consider it under the Federal Tort Claims Act
(“FTCA”). Osborn, 549 U.S. at 230.
The FTCA is a “limited waiver” of the United
States’ sovereign immunity from suit that “permits
suit only on terms and conditions strictly prescribed
by Congress.” Khatami v. Compton, 844 F. Supp. 2d
654, 663 (D. Md. 2012) (quoting Gould v. U.S. Dep’t
ofHealth & Human Servs., 905 F.2d 738, 741 (4th Cir.
1990)). “One such term ‘requires that a claim be pre­
sented to the appropriate agency within two years
after the claim accrues.’” Id. (quoting Ahmed v. United
States, 30 F.3d 514, 516 (4th Cir. 1994)). “[T]he require­
ment of filing an administrative claim is jurisdictional
and may not be waived.” Id. (quoting Ahmed, 30 F.3d
at 516). “In other words, a FTCA plaintiffs failure to
file an administrative claim deprives courts of sub­
ject-matter jurisdiction over the claim.” Id.
Judge Grimm here asserts that the Court lacks
jurisdiction over the abuse of process claim because
Plaintiff failed to first exhaust administrative remedies.
Judge Grimm does not indicate to which agency
Plaintiff should have submitted a claim, however.
Under the Judicial Conduct and Disability Act of
1980, “[a]ny person alleging that a judge has engaged

App.20a
in conduct prejudicial to the effective and expeditious
administration of the business of the courts . . . may
file with the clerk of the court of appeals for the
circuit a written complaint containing a brief statement
of the facts constituting such conduct.” 28 U.S.C.
§351. Presumably, then, Plaintiff could have filed a
complaint against Judge Grimm with the clerk of the
U.S. Court of Appeals for the Fourth Circuit before
initiating this action.
But the Court need not decide whether such a
complaint would have satisfied Plaintiff s administra­
tive exhaustion requirement under the FTCA because
the FTCA exempts from its immunity waiver claims
“arising out of. . . abuse of process.” 28 U.S.C. § 2680
(h); see Khatami, 844 F. Supp. 2d at 664 (dismissing an
abuse of process claim on this ground); see also Jones
v. United States, No. GJH-16-0726, 2017 WL 465285,
at *3 (D. Md. Feb. 2, 2017). While § 2680(h) of the
FTCA includes an exception that allows for suits
against “investigative or law enforcement officers of
the United States Government,” it defines that term to
mean “any officer of the United States who is empow­
ered by law to execute searches, to seize evidence, or
to make arrests for violations of Federal law.” 28
U.S.C. § 2680(h); see Moore v. United States, 213 F.3d
705, 709 (D.C. Cir. 2000). Accordingly, sovereign
immunity bars Plaintiffs abuse of process claim
against Judge Grimm in any capacity and Count 4
will be dismissed pursuant to Rule 12(b)(1). See
Workman v. United States, 711 F. App’x 147, 148
(4th Cir. 2018) (citing Williams v. United States, 50
F.3d 299, 303-04 (4th Cir. 1995)).

App.21a
3. Remaining Official Capacity Claims
Judge Grimm next asserts that Sovereign immu­
nity bars all other claims brought against him in his
official capacity. In general, “claims for constitutional
violations cannot be brought against officers in their
official capacity absent express consent by the United
States to be sued for the alleged conduct.” Lim v. United
States, No. DKC 10-2574, 2011 WL 2650889, at *8
(D. Md. July 5, 2011). “Federal courts have no juris­
diction over claims against the United States asserting
general violations of the Constitution not authorized
by a specific statute,” id., and “the FTCA does not waive
sovereign immunity for constitutional violations,”
Rich v. United States, 158 F. Supp. 2d 619, 625 (D.
Md. 2001).
Importantly, “[a] waiver of sovereign immunity
cannot be implied but must be unequivocally expres­
sed,” Curtis v. Pracht, 202 F. Supp. 2d 406, 418-19
(D. Md. 2002) (quoting United States v. Mitchell, 445
U.S. 535, 538 (1980)), and “[pjlaintiffs bear the burden
of demonstrating an unequivocal waiver of sovereign
immunity,” id. (citing Williams v. United States, 50
F.3d 299, 304 (4th. Cir. 1995)). “When a plaintiff has
failed to establish a waiver of sovereign immunity, a
federal court lacks jurisdiction to hear the case.”
Rich, 158 F. Supp. 2d at 630 (citing Glob. Mail Ltd. v.
U.S. PostalServ., 142 F.3d 208, 210 (4th Cir. 1998)).
Here, Plaintiff cites 42 U.S.C. § 1983 as the basis
for his claim in Count 1 for violation of due process
rights under the Fourteenth Amendment and in Count
3 for violation of his right against cruel and unusual
punishments under the Eighth Amendment. ECF
No. 3 Iff 44-47, 60-61. But “Section 1983 applies only
to state officers acting under color of state law, and

App.22a
not to federal officers.” Rich, 158 F. Supp. 2d at 630
(citing District of Columbia v. Carter, 409 U.S. 418,
424-25 (1973)). And Plaintiff cites no statutory basis
at all for his claim under Count 5 for violation of his
Fifth Amendment due process rights. A waiver cannot
be implied. Curtis, 202 F. Supp. 2d at 418-19.
Therefore, because Plaintiff has not met his burden
to identify an unequivocal waiver of sovereign
immunity, the Court lacks jurisdiction over his official
capacity claims under Counts 1, 3, and 5. And the
same reasoning applies to Plaintiffs official capacity
claim in Count 2 under Article 24 of the Maryland
Declaration of Rights. A plaintiff may not “raise a
cause of action against a federal officer in his official
capacity for alleged violations of a state constitution,
because the United States has not waived its sovereign
immunity as to state constitutional claims.” Chin v.
Wilhelm, 291 F. Supp. 2d 400, 405 (D. Md. 2003) (citing
Rich, 158 F. Supp. 2d at 630)); see also Yoh v. United
States, No. GJH-17-1641, 2018 WL 2048372, at *4 (D.
Md. May 2, 2018). The Court thus lacks jurisdiction
over Plaintiffs official capacity claim under Count 2 as
well, and accordingly all of Plaintiffs official capacity
claims will be dismissed under Rule 12(b)(1). See
Workman, 711 F. App’x at 148.
4. Individual Capacity Damages Claims
Having dismissed Count 4 entirely and found a
lack of subject matter jurisdiction over Plaintiff’s official
capacity claims under Counts 1, 2, 3, and 5, the Court
now turns to Plaintiffs claims against Judge Grimm
in his individual capacity. As Judge Grimm notes,
because Plaintiff seeks damages from an individual
government official for allegedly violating his con-

App.23a

stitutional rights, Plaintiffs individual capacity claims
under Counts 1, 3, and 5 could be construed as seeking
relief under Bivens v. Six Unknown Named Agents of
the Federal Bureau of Narcotics, 403 U.S. 388 (1971),
in which the Supreme Court recognized an implied
cause of action for damages against federal officers
for certain constitutional violations. See Doe v. Meron,
929 F.3d 153, 168 (4th Cir. 2019) (describing Bivens,
its progeny, and the Supreme Court’s recent skepticism
of extending Bivens further).
The Court need not wade into the complexities of
Bivens remedies, however, because any damages
claims against Judge Grimm in his individual capacity
are barred by judicial immunity. That doctrine,
recognized in “[a] long line of [the Supreme Court’s]
precedents[,] acknowledges that, generally, a judge is
immune from a suit for money damages.” Mireles v.
Waco, 502 U.S. 9, 9 (1991) (per curiam). One such pre­
cedent, Forrester v. White, explained that the doctrine
“protects] judicial independence by insulating judges
from vexatious actions prosecuted by disgruntled
litigants.” Forrester v. White, 484 U.S. 219, 225
(1988). “Like other forms of official immunity, judicial
immunity is an immunity from suit, not just from
ultimate assessment of damages.” Mireles, 502 U.S. at
11 (citing Mitchell v. Forsyth, 472 U.S. 511, 526 (1985)).
Judicial immunity can be overcome “in only two
sets of circumstances.” Id. “First, a judge is not immune
from liability for nonjudicial actions, i.e., actions not
taken in the judge’s judicial capacity. Second, a judge
is not immune for actions, though judicial in nature,
taken in the complete absence of all jurisdiction.” Id.
at 11-12 (citations omitted). The Complaint in this
case concerns actions that indisputably were taken

App.24a

in Judge Grimm’s judicial capacity as he presided over
Plaintiffs suit. “A judge is acting in his or her judicial
capacity when the function is one ‘normally performed
by a judge’ and when the parties ‘dealt with the judge
in his judicial capacity.’” Rhoe v. Kunz, No. GJH-173757, 2018 WL 6423897, at *5 (D. Md. Dec. 4, 2018)
(quoting Stump v. Sparkman, 435 U.S. 349, 362
(1978)).
Importantly, though Plaintiff here makes allega­
tions about improper motivations for Judge Grimm’s
rulings against him, “immunity applies even when the
judge is accused of acting maliciously and corruptly.”
Pierson v. Ray, 386 U.S. 547, 554 (1967). The first
exception to judicial immunity has no application here.
As for absence of jurisdiction, that exception applies
only if “there is clearly no jurisdiction over the sub­
ject-matter ... [and] the want of jurisdiction is known
to the judge. . . ." King v. Myers, 973 F.2d 354, 357
(4th Cir. 1992) (alterations in original) (quoting Stump,
435 U.S. at 356 n.6). No such circumstance existed here
in Plaintiffs action before Judge Grimm. Accordingly,
judicial immunity bars claims for damages against
Judge Grimm in his individual capacity under each
of the remaining counts of the Complaint.
5. Individual Capacity Claims for Equitable

Relief
Judicial immunity does not, however, extend to
claims for equitable relief.9 Foster v. Fisher, 694 F.
App’x 887, 889 (4th Cir. 2017) (citing Timmerman v.
Brown, 528 F.2d 811, 814 (4th Cir. 1975)); see also
9 Nor does qualified immunity, another defense that Judge Grimm
raises. Wall v. Wade, 741 F.3d 492, 498 n.9 (4th Cir. 2014).

App.25a
Pulliam v. Allen, 466 U.S. 522, 541-42 (1984)) (holding
that “judicial immunity is not a bar to prospective
injunctive relief against a judicial officer acting in
her judicial capacity”). “However, a litigant can prevail
in a declaratory or injunctive relief action against a
judge acting in his or her judicial capacity only in
circumscribed circumstances.” Mathis v. Martin, No.
8:13-cv-02597-AW, 2013 WL 5609134, at *4. Import­
antly, “the Fourth Circuit has decreed that injunctive
and declaratory relief are improper remedies against
judicial officers where the record demonstrates that
the plaintiff ‘is simply dissatisfied’ with the judge’s
rulings.” Id. (quoting Wilkins v. Rogers, 581 F.2d 399,
405 (4th Cir. 1978)).
As described previously, Plaintiffs petition for
relief seeks declarations that Judge Grimm’s inactivity
on the proposed prefiling injunction violates Plaintiffs
rights under the federal and Maryland Constitutions,
that Judge Grimm should issue a final order on the
proposed injunction, and that Judge Grimm should
not preside over Plaintiffs other ongoing cases. See
ECF No. 3 at 13-14. The Court has already addressed
the groundlessness of the final request in addressing
Plaintiffs recusal motion. And the second request
essentially is an expression of dissatisfaction with
Judge Grimm’s rulings or lack of rulings in Plaintiffs
case, rendering equitable relief an improper remedy.
See Mathis, 2013 WL 5609134, at *4. In contrast,
while in a practical sense the first request also arises
from Plaintiffs unhappiness with the adjudication of
his prior case, the Court will proceed to assess the
grounds for the request as they are asserted in Counts
1, 2, 3, and 5.

App.26a
The first paragraph of the petition for relief seeks
a declaration that Judge Grimm’s “Refusal to Issue a
Final Order on the Prefiling Injunction . . . violates
Plaintiffs Due Process.” ECF No. 3 .f 14. This request
presumably relates to Counts 1, 2, and 5, which as
described previously allege violations of Plaintiffs
rights to due process of law under the Fifth and Four­
teenth Amendments of the federal Constitution and
Article 24 of the Maryland Declaration of Rights. As an
initial matter, the Fourteenth Amendment component
of these claims cannot proceed because “the Fourteenth
Amendment’s Due Process Clause is a limitation on
state conduct,” while “due process protections against
the federal government are found in the Fifth Amend­
ment.” United States v. Hornsby, 666 F.3d 296, 310
(4th Cir. 2012). As a federal judge, Judge Grimm cannot
be liable for a violation of the Fourteenth Amendment.
Next, Plaintiffs claims under Article 24 of the
Maryland Declaration of Rights and the Fifth Amend­
ment to the federal Constitution may be considered
together because the two are “generally interpreted
as being synonymous.” Branch v. McGeeney, 718 A.2d
631, 642 (Md. App. 1998) (citing Oursler v. Tawes, 13
A.2d 763, 768 (Md. 1940)); see also Sesay v. Woolsey,
No. 8:18-cv-01924-PWG, 2019 WL 859782, at *8 (D.
Md. Feb. 21, 2019). Plaintiffs Opposition to Judge
Grimm’s Motion to Dismiss fails to identify any case
law or authority suggesting that Judge Grimm’s
inaction on the proposed prefiling injunction infringes
Plaintiffs federal or state due process rights, nor is
the Court aware of any.10 Instead, the Fourth Circuit
10 Plaintiffs Opposition generally fails to respond to any of the
arguments in the Motion to Dismiss and instead simply recounts
the procedural history of his prior case and asserts that the

App.27a

has squarely held that prefiling injunctions are con­
stitutionally permissible, although the court cautioned
that they must be narrowly tailored. Cromer v. Kraft
Foods N. Am., Inc., 390 F.3d 812, 817-18 (4th Cir.
2004). Here, no injunction has even been entered,
defeating any need to consider whether the Fourth
Circuit’s guidance has been followed. Plaintiffs claims
accordingly are meritless and Plaintiffs request for
declaratory relief with respect to due process must be
dismissed.
Plaintiff s failure to cite any basis for his Eighth
Amendment claim compels the same conclusion.
Because the Fourth Circuit has approved the issuing
of prefiling injunctions in certain circumstances, it
cannot be the case that imposing a prefiling injunction
against a vexatious litigant—let alone the withholding
of a final determination on whether to issue one—
implicates the Eighth Amendment. At least one District
Court has explicitly rejected such an argument. See
Easterling v. Ohio, No. 3:13-cv-024, 2013 WL 4456151,
at *9 (S.D. Ohio Aug. 16, 2013), adopted Z>y2013 WL
4757484 (S.D. Ohio Sept. 4, 2013).
Further, at least one Court of Appeals has expli­
citly distinguished between limitations on punishments
subject to the Eighth Amendment and “sanctions for
misconduct in litigation.” Ty Inc. v. Softbelly’s, Inc.,
517 F.3d 494, 499 (7th Cir. 2003). While the Court
recognizes that certain “civil sanctions may fall within
the scope” of the Eighth Amendment, Korangy v. U.S.
Fourth Circuit’s decision affirming Judge Grimm’s October 22,
2014 Order requires Judge Grimm to act on the prefiling
injunction. ECF No. 14. Because this argument is meritless and
misunderstands the meaning and result of the Fourth Circuit’s
ruling, the Court need not discuss it further.

App.28a
Food & Drug Admin., 498 F.3d 272, 277 (4th Cir. 2007)
(citing Austin v. United States, 509 U.S. 602, 610
(1993)), the Court concludes, in the total absence of
authority to support Plaintiffs claim, that the Eighth
Amendment has no bearing in this case. Plaintiffs
final claim is therefore without support and the Court
will accordingly grant Judge Grimm’s Motion to Dis­
miss.
IV. Conclusion
For the foregoing reasons, the Court will deny
Plaintiffs Motion for Removal of Judge Grimm, ECF
No. 10, and grant Judge Grimm’s Motions for Extension
of Time, ECF Nos. 11 and 15, and Motion to Dismiss,
ECF No. 12. A separate Order shall issue.
/s/
George J. Hazel
United States District Judge
Date: March 4, 2020

App.29a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MARYLAND
(MARCH 5, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
EMMANUEL EDOKOBI,
v.
JUDGE PAUL W. GRIMM,
Case No.: GJH-19-905
Notice is hereby given that Emmanuel Edokobi,
Plaintiffs in the above captioned case, hereby appeals
to the United States Court of Appeals for the Fourth
Circuit the Order Number 18 entered in this case on
March 4th, 2020.

App.30a
/s/ Emmanuel Edokobi
Signature
Printed Name and Bar Number.
2005 Stratton Drive
Potomac, Mad 20854
Address
emmanuel2040@gmail.com
Email Address
301-793-2882
Telephone Number
301-545-2132
Fax Number
March 5th, 2020
Date

App.31a
LETTER ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(APRIL 15, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
Chambers of Paul W. Grimm
United States District Judge
6500 Cherrywood Lane
Greenbelt, Maryland 20770
(301) 344-0670
(301) 344-3910 Fax
RE: Edokobi v. Toyota Motor Credit Corp. et al.
8:19-cv-00248-PWG
Dear Counsel and Mr. Edokobi:
This case was assigned to me on January 28, 2019.
Its life since then, though short, has been eventful,
with Plaintiff Emmanuel Edokobi repeatedly attempt­
ing to circumvent my authority over the case. In the
course of just a few weeks, Plaintiff has filed an
interlocutory appeal to the Fourth Circuit, see ECF
No. 21; sued me in state court; and filed a motion to
remove me from this case, see Mot. for Removal, ECF
No. 32. The interlocutory appeal ended in a voluntary
dismissal, see ECF No. 27, but both the lawsuit against
me and the motion for my removal remain pending.
Plaintiffs argument for reassigning this case to
a different judge is that I “cannot in good conscience

App.32a
provide an unbiased decision” because of his pend­
ing lawsuit against me (which, I note, has since
been removed to this Court and is now before a different
judge). Mot. for Removal If 5. Plaintiff insists that he
“will not participate” in the proceedings before me
unless and until the case is reassigned. Id. f 4.
Federal law requires a district court judge to
“disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” 28 U.S.C.
§ 455. In the Fourth Circuit, the test of impartiality
is objective: the question, generally, is whether “a
reasonable person would have a reasonable basis for
questioning the judge’s impartiality, not whether the
judge is in fact impartial.” United States v. Cherry,
330 F.3d 658, 665 (4th Cir. 2003).
In circumstances where litigation between a judge
and a litigant was entirely unrelated to the judge’s
performance of his judicial duties, then a reasonable
person might well have a reasonable basis for
questioning that judge’s impartiality to rule on the
litigant’s suit against other parties, if assigned to the
judge involved in separate litigation with the plaintiff.
But that is not the situation at hand. Here, there were
no grounds for seeking my disqualification when
Defendants removed Plaintiffs state court complaint to
this court. The grounds for Plaintiffs recusal motion
did not arise until a few weeks later, and it was
Plaintiffs own actions — in filing his suit against me
— that created them.
Federal courts have tended to eye circumstances
like these warily, and with good reason. As the Seventh
Circuit has noted, a per se rule requiring a judge’s
recusal “would allow litigants to judge shop by filing
a suit against the presiding judge.” In re Taylor,

App.33a

417 F.3d 649, 652 (7th Cir. 2005). It is for this reason,
chiefly, that there “is no rule that requires a judge to
recuse himself from a case, civil or criminal, simply
because he was or is involved in litigation with one of
the parties.” Taylor, 417 F.3d at 652; see also United
States v. Watford, 692 F. App’x 108, 110 n.l (4th Cir.
2017); Azubuko v. Royal, 443 F.3d 302, 304 (3d Cir.
2006); In re Hipp, 5 F.3d 109, 116-17 (5th Cir. 1993).
It has been noted that the prospect of judicial bias
is especially remote when the suit against the judge
is “meritless.” Taylor, 417 F.3d at 652. While it will
be up to the judge assigned Plaintiffs suit against
me to rule on its merits, I observe that it is based on
my performance of my official duties in connection
with a case Plaintiff had previously filed in this court.
See Edokobi v. M & M Mortg. Servs. Inc., 13-3707PWG. In that case, I dismissed Plaintiffs claims, he
appealed, and the Fourth Circuit affirmed the judg­
ment. See M& MMortg, 13-3707-PWG (D. Md. 2014),
ECF Nos. 19, 20, 26. At the very least, then, the merits
of Plaintiffs suit against me are highly questionable.
And because the suit explicitly concerns actions
taken in the performance of my official duties as a
judge, the doctrine of judicial immunity is plainly
implicated. SeeMireles v. Waco, 502 U.S. 9, 11 (1991);
Chu v. Griffith, 771 F.2d 79, 81 (4th Cir. 1985). Were
I to grant Plaintiffs recusal motion under these con­
ditions, it would permit him to engage in the exact
type of forum shopping that the above-referenced
cases condemned.
Finally, with respect to the Plaintiff s ultimatum
that he “will not participate” in this case unless and
until it is “assigned to a different Judge,” Mot. for
Removal If 4, that is his choice to make. But should

App.34a
he fail to respond to motions filed by the Defendants
or to comply with court orders, then he runs the risk
of his case being dismissed.
For all of these reasons, Plaintiffs motion to
reassign the case to another judge (ECF No. 32) is
denied. This Court’s Scheduling Order (ECF No. 13)
remains in effect, and the case will proceed.
Although informal, this is an Order of the Court
and shall be docketed as such.
Sincerely,
/s/
Paul W. Grimm
United States District Judge

App.35a
LETTER ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
MOTION TO REMOVE JUDGE PAUL GRIMM
(APRIL 9, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
Chambers of James K. Bredar
Chief Judge
101 West Lombard Street
Baltimore, Maryland 21201
(410) 962-0950 Office
(410) 962-0070 Fax
MDD_JKBChambers@mdd.uscourts.gov
RE: Edokobi v. Toyota Motor Credit Corp. et al.
Civil No.: PWG-19-0248
Dear Mr. Edokobi:
In the above-referenced civil case, you have filed
a motion to remove the presiding judge, the Honorable
Paul W. Grimm, from the case (ECF No. 32) and you
have sent a copy of the motion to my chambers.
Please be aware that I have no authority to order the
relief you request. Accordingly, it is up to Judge Grimm
to rule on your motion. I shall take no action on it.
Despite the informal nature of this ruling, it
shall constitute an Order of Court, and the Clerk is
directed to docket it accordingly.

App.36a
Very truly yours,
/s/

James K. Bredar
Chief Judge
cc: all counsel of record

App.37a
INFORMAL BRIEFING
ON UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
(APRIL 28, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
EMMANUEL EDOKOBI,
v.
PAUL GRIMM,
No. 20-1271
8; 19-cv-00905-GJH
NOW Comes Appellant, Emmanuel Edokobi by
Himself as a pro se (“APPELLANT”) respectfully files
this INFORMAL BRIEF for the Civil Case Above
Captioned and Plaintiff/Appellant by this INFORMAL
BRIEF Asserts Hereunder As Follows:
1. Appellant asserts that; Civil Case Above
Captioned is on Appeal from the United States
District Court for the District of Maryland Southern
Division.
2. JURISDICTION: Appellant asserts that; The
United States Court of Appeal for the Fourth Circuit
Has Jurisdiction Over this Civil Case and the Venue
for this Appeal is Proper.

App.38a
3. TIMELINESS: Appellant asserts that; Notice
of Appeal Was Timely Filed For The Following U.S.
District Court’s MEMORANDUM OPINION AND
ORDER ECF NO. 18: By Which Appellant’s Civil
Case No. GJH-19-905 Was Dismissed On March 4,
2020 And NOTICE OF APPEAL Was Timely Filed
On March 4, 2020.
4. TIMELINESS: Appellant asserts that: NOTICE
OF APPEAL Was Timely Filed for the Following U
S. District Court’s MEMORANDUM OPINION AND
ORDER ECF NO. 18: By Which Appellant’s Civil
Case No. GJH-19-905 Was Dismissed And U.S. District
Court’s ORDER Entered On March 4, 2020 And
NOTICE OF APPEAL Was Filed On March 4, 2020.
I.

The U.S. District Court’s Memorandum of Opinion
and Order Entered on March 4, 2020:

5. The U.S. District Court’s ORDER (ECF NO.
18); And Singed By United States District Judge,
Honorable George J. Hazel And Entered On March 4,
2020 Provides Hereunder As Follows:
(1) The U.S. District Court’s MEMORANDUM
OF OPINION AND ORDER ECF NO. 18
“ORDER” Granting ECF No. 12; Honorable
Paul W. Grimm’s Motion to Dismiss
Complaint ECF No. 12;
(2) The U.S. District Court’s MEMORANDUM
OF OPINION AND ORDER ECF NO. 18
“ORDER” Denying ECF No. 10; Appellant’s
Motion for Removal of the Civil Case No. 8:19Cv-00248-PWG and Civil Case No. 8:19-CV01071-PWG From Honorable Paul W. Grimm
ECF No. 10.

App.39a
II. Issue No. 1: Whether U.S. District Court Erred
in Granting Honorable Paul W. Grimm’s Motion
to Dismiss, ECF No. 12; Civil Case Emmanuel
Edokobi v. Paul Grimm; 8:19-cv-00905-GJH;
Appeal No. 20-1271
A. Issue No. 1; Enquiry:
6. Appellant By ISSUE NO. 1: Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:
Whether U.S. District Court Erred In Granting
Honorable Judge Paul W. Grimm’s Motion To Dismiss,
ECF No. 12; Civil Case Emmanuel Edokobi v. Paul
Grimm; 8:19-cv-00905-GJH; Appeal No. 20-1271
B. Issue No. 1: Arguments:
7. Appellant’s Arguments On Whether U.S.
District Court Erred In Granting Appellee Paul W.
Grimm’s Motion To Dismiss, ECF No. 12; For Civil
Case Emmanuel Edokobi v. Paul Grimm; 8:19-cv00905-GJH; Appeal No. 20-1271 ECF No. 18 and
Entered on March 4, 2020; And Appellant’s Arguments
Are Provided Hereunder As Follows.
8. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm; 8:19-cv-00905, Because; U.S.
District Did Not Provide Reason Or Reasons For
Honorable Paul W. Grimm’s FAILURE TO COM­
PLETE HIS LETTER ORDER ECF NO. 25 For Civil

App.40a
Case No. 8:13-cv-03707-PWG Entered On December 3,
2014; And It Has Pasted Five (5) Years.
9. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; U.S.
District Court Provided Twenty-two (22) Pages Of
Memorandum Opinion In The Closure Of; Civil Case
Emmanuel Edokobi v. Paul Grimm, 8:19-cv-00905GJH; Without Providing Any Information On Honor­
able Judge Grimm’s Reason Or Reasons For Honorable
Judge Grimm’s REFUSAL TO COMPLETE HIS
LETTER ORDER ECF NO, 25: With Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M & MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc., “LETTER ORDER” Was Entered
On December 3, 2014; And It Has Pasted Five (5)
Years.
10. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; U.
S. District Court Provided Twenty-two (22) Pages Of
Memorandum Opinion In The Closure Of; Civil Case
Emmanuel Edokobi v. Paul Grimm, 8:19-cv-00905GJH; Without Providing Any Information; On What
Is Preventing Honorable Judge Grimm From Complete
His Letter Order ECF No. 25: For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc., “LETTER ORDER” Entered On
December 3, 2014; And It Has Pasted Five (5) Years.
11. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion

App.41a
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; Honor­
able Judge Paul Grimm IS LEGALLY REQUIRED
TO COMPLETE HIS PRE-FILING INJUNCTION
LETTER ORDER As Noted in Honorable Judge
Grimm’s LETTER ORDER ECF No.25 For Civil Case
No. 8:13-cv-03707-PWG; Edokobi v. M & M Mortgage
Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc., Entered On December 3, 2014; And It Has
Pasted Five (5) Years: And Honorable Judge Grimm’s
LETTER ORDER Provides Hereunder In Pertinent
Part:
RE: Edokobi v. M& MMortgage Services Inc.
PWG-13-3707
LETTER ORDER
1 “With regard to my October 22, 2014 dis­
missal of Plaintiff Emmanuel Edokobi’s claims
with prejudice and denial of Plaintiffs Motion
to Enter Default Judgment as moot, ECF No.
19, Plaintiff has filed an “Opposition Motion
to Court Order Granting Defendants’ Motion
to Dismiss Plaintiffs Complaint and Opposi­
tion to Court Proposed Imposition of PreFiling Injunction and Opposition to Court
Order Dismissing Plaintiffs Motion for
Default Judgment Against MSI,” and sought
“New Trial of Civil Action No. 8:13-CV-03707PWG.” ECF No. 22. Plaintiff also filed a
Notice of Appeal of the October 22, 2014
Order to the Fourth Circuit. ECF No. 20.
Insofar as Plaintiff asks me to reconsider the
October 22. 2014 Order. Plaintiffs Notice of
Anneal divested this Court of jurisdiction to
consider his motion. See Griggs v. Provident

App.42a
Discount Co., 459 U.S. 56, 58 (1982); Panowicz v. Hancock, No. DKC-11-2417, 2013 WL
5442959, at *2 (D. Md. Sept. 27, 2013) (citing
Griggs). Additionally, I will not take further
action regarding the pre-filing injunction until
the Fourth Circuit has issued its ruling”.
(See Edokobi v. M& MMortg. Servs., Inc., No.
8:13-cv-03707-PWG (D. Md. Oct. 22, 2014)).
12. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm-, 8:19-cv-00905, Because;
Honorable Judge Paul Grimm IS LEGALLY
REQUIRED TO HONOR HIS LETTER ORDER BY
COMPLETING HIS LETTER ORDER WHICH HE
ISSUED FIVE (5) YEARS AGO. A Copy of Honorable
Paul W. Grimm’s LETTER ORDER ECF NO. 25.
Herein Marked Appellant’s Exhibit Number 1.
13. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; U.S.
District Court Provided Twenty-two (22) Pages Of
Memorandum Opinion In The Closure Of; Civil Case
Emmanuel Edokobi v. Paul Grimm, 8:19-cv-00905GJH; Appeal No. 20-1271, WITHOUT PROVIDING
INFORMATION ON WHEN HONORABLE JUDGE
GRIMM HONORABLE JUDGE GRIMM WILL
COMPLETE HIS LETTER ORDER ECF NO. 25 For
Civil Case No. 8:13-cv-03707-PWG; Appeal No. 14-2204;
Edokobi v. M & M Mortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc., Entered On Decem­
ber 3, 2014; And It Has Pasted Five (5) Years.

App.43a

14. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; Appel­
lant Has Been Waiting For Honorable Judge Grimm
TO COMPLETE HIS LETTER ORDER ECF NO.
25 For Civil Case No. 8:13-cv-03707-PWG; Appeal No.
14-2204; Edokobi v. M & M Mortgage Services
Inc., Entered On December 3, 2014; And It Has Pasted
Five (5) Years.
15. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; IT
IS ABSOLUTELY UNFAIR AND WRONG FOR
HONORABLE GRIMM TO REFUSE TO COM­
PLETE HIS LETTER ORDER ECF NO. 25 For Civil
Case No. 8:13-cv-03707-PWG; Appeal No. 14-2204;
Edokobi v. M & M Mortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc., Entered On
December 3, 2014: And It Has Pasted Five (5) Years.
16. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because; THIS
CIVIL ACTION ACCRUED FROM HONORABLE
GRIMM’S REFUSAL TO COMPLETE HIS LETTER
ORDER ECF NO. 25: ENTERED ON DECEMBER
13. 2014 WHICH HAS REMAINED UNCOMPLETED
FOR THE PASTED FIVE (5) YEARS.
17. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm-, 8:19-cv-00905, Because;

App.44a
Honorable Judge Grimm DOES NOT HAVE ANY
REASON OR REASONS FOR NOT COMPLETING
HIS LETTER ORDER ECF NO. 25: For Civil Case
No. 8:13-cv-03707-PWG; Appeal No. 14-2204; Edokobi
v. M & M Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc., Entered On December 3,
2014; And It Has Pasted Five (5) Years.
18. Appellant Argues That; U.S. District Court
Erred In Granting Honorable Paul W. Grimm’s Motion
To Dismiss, ECF No. 12; For Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905, Because;
APPELLANT DOES NOT DESERVE BEING KEPT
IN SUSPENSE BY HONORABLE JUDGE GRIMM’S
REFUSAL TO COMPLETE HIS LETTER ORDER
ECF NO. 25: For Civil Case No. 8:13-cv-03707-PWG;
Appeal No. 14-2204; Edokobi v. M & M Mortgage
Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc., Entered On December 3, 2014; And It Has
Pasted Five (5) Years.
19. Appellant By This Appeal Realleges Appel­
lant’s Five (5) Counts Of Causes Of Action Against
Honorable Judge Grimm Because; U.S. District Court
DID NOT PROVIDE ANY REASON OR REASONS
FOR HONORABLE JUDGE GRIMM’S REFUSAL
TO COMPLETE HIS LETTER ORDER ECF NO. 25:
For Civil Case No. 8:13-cv-03707-PWG; Appeal No.
14-2204; Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc., Entered On
December 3, 2014; And It Has Pasted Five (5) Years.
20. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States
Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting
ECF No. 12; Appellee’s Motion to Dismiss, And Deny

App.45a

The Dismissing Of Appellant’s Civil Case Emmanuel
Edokobi v. Paul Grimm-, 8:19-cv-00905-GJH; Appeal
No. 20-1271, Because, U.S. District Court Did Not
Provide Any Information On Honorable Judge Grimm’s
Reason Or Reasons Of Honorable Judge Grimm’s
Refusal To Complete His LETTER ORDER ECF NO.
25; Appeal No. 14-2204; Edokobi v. M & MMortgage
Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc., For Civil Case No. 8:13-cv-03707-PWG Entered
On December 3, 2014; And It Has Pasted Five (5)
Years.
III. Issue No. 2: Whether U.S. District Court Erred
in Denying Appellant’s Motion for the Removal
of the Civil Case No. 8:19-cv-00248-PWG and
Civil Case No. 8:19-cv-01071-PWG from Honorable
Paul W. Grimm, ECF No. 10; for Civil Case
Emmanuel Edokobi v. Paul Grimm, 8:19-cv00905-GJH; Appeal No. 20-1271
A. Issue No. 2; Enquiry:
21. Appellant By ISSUE NO. 2: Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:
Whether U.S. District Court Erred In Denying
Appellant’s Motion For The Removal Of The
Civil Case No. 8:19-cv-00248-PWG and Civil
Case No. 8:19-cv-01071-PWG From Honorable
Paul W. Grimm, ECF No. 10; Of The Civil
Case Emmanuel Edokobi v. Paul Grimm,
8:19-CV-009Q5-GJH, Appeal No. 20-1271

App.46a
B. Issue No. 2: Arguments:
22. Appellant’s Arguments On Whether U.S.
District Court Erred In Denying Appellant’s Motion
For The Removal Of The Civil Case No. 8:19-cv00248-PWG; Appeal; No. 20-1243; Edokobi v. Toyota
Motor Credit Corporation et al\ And Civil Case No.
19-CV-00905-GJH; Appeal No. 20-1271; Emmanuel
Edokobi v. Paul Grimm, ECF No. 10; From Honorable
Paul W. Grimm, And Appellant’s Arguments Are
Provided Hereunder As Follows.
23. Appellant Argues That; U.S. District Court
Erred In Denying Appellant’s Motion For The Removal
Of The Civil Case No. 8:19-cv-00248-PWG; Appeal;
No. 20-1243; Edokobi v. Toyota Motor Credit Corpora­
tion et al, And Civil Case No. 8:19-cv-01071-PWG;
Appeal No. 20-1271; Emmanuel Edokobi v. Paul
Grimm, ECF No. 10; From Honorable Paul W. Grimm,
Because; Honorable Judge Paul W. Grimm Was
Judicially Disabled To Hear Those Civil Cases, Due
To; Appellant’s Civil Action Against Honorable Judge
Paul W. Grimm, Pending Before This Honorable Court.
24. Appellant Argues That; U.S. District Court
Erred In Denying Appellant’s Motion For The Removal
Of The Civil Case No. 8:19-cv-00248-PWG; Appeal;
No. 20-1243; Edokobi v. Toyota Motor Credit Corpora­
tion et al, And Civil Case No. 8:19-cv-01071-PWG;
Appeal No. 20-1271; Emmanuel Edokobi v. Paul
Grimm, ECF No. 10; From Honorable Paul W. Grimm,
Because; Honorable Judge Paul W. Grimm Was
Biased Towards Appellant.
25. Appellant Argues That; U.S. District Court
Erred In Denying Appellant’s Motion For The Removal
Of The Civil Case No. 8:19-cv-00248-PWG; Appeal;

App.47a
No. 20-1243; Edokobi v. Toyota Motor Credit Corpora­
tion et ai, And Civil Case No. 8:19-cv-01071-PWG;
Appeal No. 20-1271; Emmanuel Edokobi v. Paul
Grimm, ECF No. 10; From Honorable Paul W. Grimm,
Because; Honorable Judge Paul W. Grimm Was
Judicially Disabled To Hear These Civil Cases, Because;
Honorable Judge Paul W. Grimm Could Not In Good
Conscience Provide An Unbiased Decision in the Civil
Case No. 8:19-cv-00248-PWG; Edokobi v. Toyota Motor
Credit Corporation et al; And Civil Case No. 8:19-cv01071-PWG; Appeal No. 20-1271; Emmanuel Edokobi
v. Paul Grimm, Due To; Appellant’s Civil Action
Against Honorable Judge Paul W. Grimm with Civil
Case No. 8:19-cv-00905-GJH; Emmanuel Edokobi v.
Paul Grimm Civil Currently Pending Before This
Honorable Court with Anneal No. 20-1271. A Copy Of
Motion To Remove Edokobi v. Toyota Motor Credit
Corporation et al\ And Civil Case No. 8:19-cv-01071PWG; Appeal No. 20-1271 From Honorable Paul W.
Grimm Without Exhibits Herein Marked Appellant’s
Exhibit Number 2.
26. Appellant By This Appeal Realleges Appel­
lant’s Five (5) Counts Of Causes Of Action Against
Honorable Judge Grimm Because; Honorable Paul W.
Grimm Has Refused To Complete His LETTER
ORDER ECF NO. 25: For Civil Case No. 8:13-cv03707-PWG; Appeal No. 14-2204; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc., Entered On December 3, 2014; And
It Has Pasted Five (5) Years.
27. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States
Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting

App.48a
ECF No. 12; Appellee’s Motion to Dismiss, And Deny
The Dismissing Of Appellant’s Civil Case Emmanuel
Edokobi v. Paul Grimm, 8:19-cv-00905-GJH; Appeal
No. 20-1271, Because, Honorable Judge Paul W.
Grimm Was Judicially Disabled To Hear Civil Case
No. 8:19-cv-00248-PWG; Appeal; No. 20-1243; Edokobi
v. Toyota Motor Credit Corporation et al, And Civil
Case No. 8:19-cv-01071-PWG; Appeal No. 20-1271;
Emmanuel Edokobi v. Paul Grimm, Because: Honorable
Judge Paul W. Grimm Was Biased Towards Appellant.
IV. Issue No. 3: Whether Honorable Judge Paul W.
Grimm Is in Disobedience to Rule 41; Mandate
of the United States Court of Appeal for the
Fourth Circuit Entered March 19, 2015; Appeal
No. 14-2204; Civil Cas No. 8:13-cv-03707-PWG;
Edokobi v. M & MMortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc.
A. Issue No. 3; Enquiry:
28. Appellant By ISSUE NO. 3; Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:
Whether Honorable Judge Paul W. Grimm
Is In Disobedience To Rule 41; Mandate Of
The United States Court Of Appeal For The
Fourth Circuit Entered March 19, 2015;
Appeal No. 14-2204; Civil Cas No. 8:13-cv03707-PWG; Edokobi v. M & M Mortgage
Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc.

App.49a
B. Issue No. 3: Arguments:
29. Appellant’s Arguments On Whether Honor­
able Judge Paul W. Grimm Is In Disobedience To Rule
41; Mandate Of The United States Court Of Appeal
For The Fourth Circuit Entered March 19, 2015; By
Honorable Judge Paul W. GRIMM’S REFUSAL TO
COMPLETE HIS LETTER ORDER ECF NO. 25 For
Appeal No. 14-2204; Civil Cas No. 8:13-cv-03707-PWG;
Edokobi v. M & M Mortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc., And Appellant’s
Arguments Are Provided Hereunder As Follows.
30. Appellant Argues That; Honorable Judge Paul
W. Grimm Is In Disobedience to Rule 41; Mandate Of
The United States Court of Appeal For The Fourth
Circuit Entered On March 19, 2015; By Honorable
Judge Paul W. GRIMM’S REFUSAL TO COMPLETE
HIS LETTER ORDER ECF NO. 25 For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc., And That; Honorable Judge
Grimm; IS LEGALLY REQUIRED TO COMPLETE
HIS LETTER ORDER ECF NO, 25 Entered On
December 3, 2015; And United States Court of Appeal
For The Fourth Circuit’s Mandate For Anneal No. 14-.
2204; Entered On March 19, 2015 Provides Hereunder
In Pertinent Part:
PER CURIAM:
* 2 Although the prefiling injunction determi­
nation remains pending in the district court, it
appears that the district court has completed
its consideration of the merits of this case
based on its dismissal of Edokobi’s claims.
See Ray Haluch Gravel Co. v. Cent. Pension

App.50a

Fund of the Inti Union of Operating Eng’rs
& Participating Empfs, 134 S. Ct. 773, 779
(2014) (holding pending motion for attorney’s
fees collateral to merits for finality purposes).
We therefore conclude that the district court’s
order dismissing Edokobi’s complaint as
barred by res judicata is final and appealable.
(See Unpublished United States Court Of
Appeals for The Fourth Circuit Mandate on
Case No. 14-2204 (Per Curiam).
A Copy Of The Mandate Herein Marked
Appellant’s Exhibit Number 3.
31. Appellant Argues That; Honorable Judge Paul
W. Grimm Is In Disobedience to Rule 41; Mandate Of
The United States Court of Appeal for the Fourth
Circuit Entered On March 19, 2015 Bv Honorable
Judge Paul W. GRIMM’S REFUSAL TO COMPLETE
HIS LETTER ORDER ECF NO. 25 For Civil Case
No. 8:13-cv-03707-PWG; Appeal No. 14-2204; Edokobi
v. M & M Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc., Entered On March 19,
2015; And That, It Is Now Over Five (5) Years: And
That; United States Court of Appeal for the Fourth
Circuit Had Issued The Mandate Which Directs That;
“Although The Prefiling Injunction Determination
Remains Pending In The District Court” And
Honorable Judge Paul Grimm Has NOT MADE
ANY ATTEMPT TO COMPLETE THE PREFILING
INJUNCTION ORDER.
32. Appellant Argues That; Honorable Judge Paul
W. Grimm Is In Disobedience To Rule 41; Mandate
Of The United States Court of Appeal for the Fourth
Circuit Entered On March 19, 2015; Bv Honorable
Judge Paul W. GRIMM’S REFUSAL TO COMPLETE

App.51a

HIS LETTER ORDER ECF NO. 25 For Civil Case
No. 8:13-cv-03707-PWG; Appeal No. 14-2204; Edokobi
v. M & M Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc., Entered On March 19,
2015; And That; Honorable Judge Paul W. Grimm
Has Not Provided Any Reason Or Reasons For His
Refusal To Complete His LETTER ORDER ECF NO.
25; Appeal No. 14-2204; Edokobi v. M& MMortgage
Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc., For Civil Case No. 8:13-cv-03707-PWG Entered
On December 3, 2014; And It Has Pasted Five (5)
Years.
33. Appellant Argues That; Honorable Judge Paul
W. Grimm Is In Disobedience To Rule 41; Mandate
Of The United States Court of Appeal for the Fourth
Circuit Entered March 19, 2015; By Honorable Judge
Paul W. GRIMM’S REFUSAL TO COMPLETE HIS
LETTER ORDER ECF NO. 25 for Civil Case No.
8:13-cv-03707-PWG; Appeal No. 14-2204; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc., Entered On March 19, 2015;
And That; These Fourth Circuit Court’s Citations That;
Honorable Judge Grimm Applied In His Memorandum
of Opinion Used In Dismissing Appellant’s Complaint
Made It Absolutely Impossible For Honorable Judge
Paul W. Grimm NOT TO ADHERE TO Fourth Circuit
Court’s Mandate Entered On March 19, 2015; And
Those Fourth Circuit Court’s Citations Are Described
Hereunder In The Footnote As Follows:
3 Adams v. Bain, 697 F.2d 1213, 1219 (4th
Cir, 1982).-(Citation Number-(l); (Page 5).
Lovern v. Edwards, 190 F.3d 648, 654 (4th
Cir. 1999)-(Citation Number-(2); (Page 5).
Kerns v. United States, 585 F.3d 187, 192

App.52a
(4th Cir. 2009/ (Citation Number- (3): (Page 5).
Republican Party of N.C. v. Martin, 980 F.2d
943, 952 (4th Cir. 1992(-(Citation Number(4); (Page 6). Anand v. Ocwen Loan Servicing,
LLC, 754 F.3d 195, 198 (4th Cir. 2014)
(Citation Number-(5); (Page 6). Phillips v.
Pitt Cty. Mem. Hosp., 572 F.3d 176, 180 (4th
Cir. 2009). (Citation Number—(6)—(Page 6).
Consulting Engineers Corp. v. Geometric Ltd.,
561 F.3d 273, 276 (4th Cir. 2009)-(Citation
Number; (7); (Page 7). (Citing Combs v.
Bakker, 886 F.2d 673, 676 (4th Cir 1989)).
(Citation Number-(8); (Page 7). Welch v.
United States, 409 F.3d 646, 650 (4th Cir.
2005)—Citation Number-(9); (Page 7). Inti
Federation of Professional & Technical
Engineers v. U.S., 934 F. Supp. 2d 816, 820
(D. Md. 2013) (citing Portsmouth Redev. &
Hous. Auth. v. Pierce, 706 F.2d 471, 473 (4th
Cir. 1983)). (Citation Number-(lO); (Page (7).
D.D.C. 2002); see also Talbert v. U.S., 932
F.2d 1064, 1066 (4th Cir. 199l)-Citation
Number (ll); (Page 9). Williams v. United
States, 50 F.3d 299, 304 (4th Cir. 1995)
Citation Number-(l2); (Page 10). Randall v.
United States, 95 F.3d 339, 345 (4th Cir.
1996) Citation Number-(13); (Page ll).
Williams v. United States, 242 F.2d 169,
175 (4th Cir. 2001) Citation Number-(14);(Page ll). Forrester v. White, 484 U.S. 219,
219 (1988). See also King v. Myers, 973 F.2d
354, 356 (4th Cir. 1992)—Citation Number(15). King v. Myers, 973 F.2d 354, 356 (4th
Cir. 1992) Citation Number (16) (Page 12).
Anderson v. Middleton, 866 F.2d 1415 (4th

App.53a
Cir. 1989) (per curium). Citation Number
(17) (Page 17).
34. Appellant By This Appeal Realleges Appel­
lant’s Five (5) Counts Of Causes Of Action Against
Honorable Judge Grimm Because; Honorable Judge
Paul W. Grimm Is In Disobedience To Rule 41;
Mandate Of The United States Court of Appeal For
The Fourth Circuit Entered On March 19, 2015; By
Honorable Judge Paul W. GRIMM’S REFUSAL TO
COMPLETE HIS LETTER ORDER ECF NO. 25 For
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707PWG; Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist; Inc., Entered
On December 3, 2014; And It Has Pasted Five (5)
Years: And Appellant’s Arguments Are Support By
These Cases Mentioned Herein. See Goforth v. Owens,
766 F.2d 1533, 1535 (llth Cir. 1985); Smith v. HSBC
Bank USA, N.A., 679 Fed. Appx. 876 (llth Cir. Feb.
13, 2011); And ExxonMobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 125 S.Ct. 1517, 161 L.Ed.2d 454
(2005).
35. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States
Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting
ECF No. 12; Appellee’s Motion To Dismiss, And Deny
The Dismissing Of Appellant’s Civil Case Civil Case
No.8:19-cv-00905-GJH; Emmanuel Edokobi v. Paul
Grimm, Because, Honorable Judge Paul W. Grimm
Is In Disobedience To Rule 41; MANDATE Of The
United States Court of Appeal for the Fourth Circuit’s
MANDATE Entered On March 19, 2015 For Appeal
No. 14-2204; Civil Case No. 8:13-cv-03707-PWG;
Edokobi v. M & M Mortgage Services Inc., Juan

App.54a
Gonzalez; Mortgage Specialist, Inc. See Goforth v.
Owens, 766 F.2d 1533, 1535 (llth Cir. 1985).
V.

Issue No. 4: Whether Honorable Judge Paul W.
Grimm Exhibited Abuse of Discretion in His
Refusal to Complete His Letter Order ECF No.
25; for Appeal No. 14-2204; Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & M Mortgage
Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc., Entered on December 3, 2014
A. Issue No. 4; Enquiry:

36. Appellant By ISSUE NO. 4: Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:
Whether Honorable Judge Paul W. Grimm
Exhibited ABUSE OF DISCRETION IN HIS
REFUSAL TO COMPLETE HIS LETTER
ORDER ECF NO. 25: For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG;
Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc.
Entered On December 3, 2014; PREFILING
INJUNCTION AMOUNTS TO
B. Issue No. 4: Arguments;
37. Appellant’s Arguments On Whether Honor­
able Judge Paul W. Grimm Exhibited ABUSE OF
DISCRETION In REFUSAL TO COMPLETE HIS
LETTER ORDER ECF NO. 25: For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort-

App.55a
gage Specialist, Inc. Entered On December 3, 2014;
And Appellant’s Arguments Are Provided Hereunder
As Follows.
38. Appellant Argues That, Honorable Judge Paul
W. Grimm Exhibited ABUSE OF DISCRETION In
His REFUSAL TO COMPLETE HIS LETTER ORDER
ECF NO. 25 For Appeal No. 14-2204; Civil Case No.
8:13-cv-03707-PWG; Edokobi v. M & M Mortgage
Services Inc., Juan Gonzalez; Mortgage Specialist, Inc.
Entered On December 3, 2014; And It Has Pasted Five
(5) Years: And Appellant’s Arguments Are Supported
By These Cases Mentioned Herein As Follows: Pashby
v. Delia, 709 F.3d 307, 319 (4th Cir. 2013); Koon v.
United States, 518 U.S. 81, 100 (1996) (explaining
that a court “by definition abuses its discretion when
it makes an error of law; See Alvarez Lagos v. Barr,
927 F.3d 236, 255 (4th Cir. 2019).
39. Appellant Argues That, Honorable Judge Paul
W. Grimm Exhibited ABUSE OF DISCRETION In
His REFUSAL TO COMPLETE HIS LETTER ORDER
ECF NO. 25: Amounts To ABUSE OF DISCRETION.
Because; Honorable Judge Paul W. Grimm Did Not
Provide His Reason Or Reasons For His REFUSAL
TO COMPLETE HIS LETTER ORDER ECF NO. 25:
For Appeal No. 14-2204; Civil Case No. 8:13-cv03707-PWG; Edokobi v. M & M Mortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
On December 3, 2014; And It Has Pasted Five (5)
Years. See Babkin v. Oregon Health Sciences Univ.,
350 F.3d 967, 977 (9th Cir. 2003); Gotthardt v. Nat’l
R.R. Passenger Corp., 191 F.3d 1148, 1156 (9th Cir.
1999); Cancellier v. Federated Dep’t Stores, 672 F.2d
1312, 1319 (9th Cir.1982); United States v. Washing­
ton, 157 F.3d 630, 642 (9th Cir. 1998); And Inti Jensen,

App.56a
Inc. v. Metrosound U.S.A., Inc., 4 F.3d 819, 822 (9th Cir.
1993) (internal quotations and citation omitted).
40. Appellant Argues That, Honorable Judge Paul
W. Grimm’s REFUSAL TO COMPLETE HIS LETTER
ORDER ECF NO. 25 Amounts To ABUSE OF DISCRE­
TION. Because; Honorable Judge Paul W. Grimm Has
The RESPONSIBILITY TO COMPLETE HIS LETTER
ORDER ECF NO. 25: For Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & MMort­
gage Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc. Entered On December 3, 2014; And It Has
Pasted Five (5) Years.
41. Appellant Argues That, Honorable Judge Paul
W. Grimm’s REFUSAL TO COMPLETE HIS LETTER
ORDER ECF NO. 25 Amounts To ABUSE OF DISCRE­
TION. Because; Honorable Judge Paul W. Grimm
Intentionally Ignored To Complete His LETTER
ORDER ECF NO. 25: For Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & MMort­
gage Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc. Entered On December 3, 2014; Because, Honorable
Judge Paul W. Grimm’s Refusal To Complete His
LETTER ORDER ECF NO. 25: Entered On Decem­
ber 3, 2014; And It Has Pasted Five (5) Years.
42. Appellant Argues That, Honorable Judge Paul
W. Grimm Exhibited ABUSE OF DISCRETION In
Refusal To Complete His LETTER ORDER ECF NO.
25: For Appeal No. 14-2204; Civil Case No. 8:13-cv03707-PWG; Edokobi v. M & MMortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc. Entered On
December 3, 2014; And These Cases Mentioned Herein
Support Appellant’s Arguments; See Fusaro v. Cogan,
930 F.3d 241, 248 (4th Cir. 2019) (explaining abuse
of discretion standard); cf. Henderson exrel. NLRB v.

App.57a

BluefieldHosp. Co., 902 F.3d 432, 439 (4th Cir. 2018);
Centro Tepeyac v. Montgomery Cty., 722 F.3d 184,
188 (4th Cir. 2013) (en banc); And Quince Orchard
Valley Citizens Ass’n v. Hodel, 872 F.2d 75, 78 (4th
Cir. 1989).
43. Appellant Argues That, Honorable Judge Paul
W. Grimm Exhibited ABUSE OF DISCRETION In
Refusal To Complete His LETTER ORDER ECF NO.
25; For Appeal No. 14-2204; Civil Case No. 8:13-cv03707-PWG; Edokobi v. M & M Mortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
On December 3, 2014; And Appellant’s Arguments
Are Supported By These Cases Mentioned Herein As
Follows; Hobby Lobby Stores, Inc. v. Sebelius, 723
F.3d 1114, 1145 & n.21 (10th Cir. 2013) (en banc).
We then evaluate the court’s “ultimate decision” to
deny injunctive relief for abuse of discretion; Gonzales
v. O Centro Espirita Benelicente Uniao do Vegetal,
546 U.S. 418, 428 (2006); And Booth v. Wal-Mart
Stores, Inc., 201 F.3d 335 (4th Cir. 2000) when
deciding whether the administrator’s denial of coverage
was an abuse of discretion.
44. Appellant By This Appeal Realleges Appel­
lant’s Five (5) Counts Of Causes Of Action Against
Honorable Judge Grimm Because; Exhibited ABUSE
OF DISCRETION In Refusal To Complete His
LETTER ORDER ECF NO. 25: For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M & MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc. Entered On December 3, 2014;
And Honorable Judge Paul W. Grimm’s Refusal To
Complete His LETTER ORDER ECF NO. 25 Amounts
To ABUSE OF DISCRETION: See Fusaro v. Cogan,
930 F.3d 241, 246 (4th Cir. 2019); Centro Tepeyac v.

App.58a

Montgomery Cty., 722 F.3d 184, 188 (4th Cir. 2013)
(en banc) And Quince Orchard Valley Citizens Ass’n
v. Hodel, 872 F.2d 75, 78 (4th Cir 1989).
45. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States
Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting
ECF No. 12; Appellee’s Motion To Dismiss, And Deny
The Dismissing Of Appellant’s Civil Case Civil Case
No.8:19-cv-00905-GJH; Emmanuel Edokobi v. Paul
Grimm-, Because, Honorable Judge Paul W. Grimm
Exhibited ABUSE OF DISCRETION In Refusal To
Complete His LETTER ORDER ECF NO, 25: For
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707-PWG;
Edokobi v. M & M Mortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc. Entered On Decem­
ber 3. 2014; And It Has Pasted Five (5) Years And
That; Honorable Judge Paul W. Grimm Did Not
Provide His Reason Or Reasons For His Refusal To His
LETTER ORDER ECF NO. 25: Entered On December
3, 2014.
VI. Issue No. 5: Whether Honorable Judge Grimm’s
Assertion of the Court Lacks Jurisdiction
Admissible in the Civil Case
A. Issue No. 5; Enquiry:
46. Appellant By ISSUE NO. 5; Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:

App.59a
Whether Honorable Judge Grimm’s Assertion
Of the Court Lacks Jurisdiction Admissible
In The Civil Case
B. Issue No. 5; Arguments:
47. Appellant’s Arguments On Whether Honor­
able Judge Grimm’s Assertion Of the Court Lacks
Jurisdiction Admissible In This Civil Case And
Appellant’s ISSUE NO. 5: ARGUMENTS Are Provided
In Response To Honorable Judge Grimm’s Assertion
Of the Court Lacks Jurisdiction In ECF No. 18 at
p.14-15.
48. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of the Court Lacks Jurisdiction;
Is Not Admissible In This Civil Case; Because,
Honorable Judge Grimm Is Legally Required To
Complete His LETTER ORDER ECF NO. 25: For
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707PWG; Edokobi v. M & M Mortgage Services Inc. ,
Juan Gonzalez; Mortgage Specialist, Inc. Entered On
December 3, 2014; And It Has Pasted Five (5) Years:
And That; Honorable Judge Paul W. Grimm Did Not
Provide His Reason Or Reasons For His Refusal To
His LETTER ORDER ECF NO. 25: Entered On
December 3, 2014.
49. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of the Court Lacks Jurisdiction;
Is Not Admissible In This Civil Case; Because,
Honorable Judge Grimm Had Issued The LETTER
ORDER ECF NO. 25: And That; Honorable Judge
Grimm Should Complete His LETTER ORDER ECF
NO. 25; And That Honorable Judge Grimm Does Not
Need The Help Of The Court to Complete His LETTER

App.60a

ORDER ECF NO. 25: Entered On December 3, 2014;
And It Has Pasted Five (5) Years.
50. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of the Court Lacks Jurisdiction;
Is Not Admissible In This Civil Case; Because, The
Court Jurisdiction Does Not Extend To Private Decision
of The A Judge; And That; Honorable Judge Grimm
Is Personally Responsible For The Completion Of His
LETTER ORDER ECF NO. 25; For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc. Entered On December 3, 2014;
And It Has Pasted Five (5) Years.
51. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Court Lacks Jurisdiction; Is Not
Admissible In This Civil Case; Because, Court Lacks
Jurisdiction; Is Not Proper Defense To Protect
Honorable Judge Grimm From Completing His
LETTER ORDER ECF NO. 25: For Appeal No. 142204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M & MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc. Entered On December 3, 2014;
And It Has Pasted Five (5) Years.
52. Appellant By This Appeal Realleges
Appellant’s Five (5) Counts Of Causes Of Action
Against Honorable Judge Grimm Because; Honorable
Judge Grimm’s Assertion Of the Court Lacks Jurisdic­
tion; Is Not Admissible In This Civil Case; Because;
The Completion Of His LETTER ORDER ECF NO.
25 Is Honorable Judge Grimm’s Responsibility And
Not The Court.
53. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States

App.61a

Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting
ECF No. 12; Appellee’s Motion To Dismiss, And Deny
The Dismissing Of Appellant’s Civil Case Civil Case
No.8:19-cv-00905-GJH; Emmanuel Edokobi v. Paul
Grimm, Because, Honorable Judge Paul W. Grimm’s
Assertion Of the Court Lacks Jurisdiction; Is Not
Admissible In This Civil Case; Because; It Is His
Legal Duty To Complete His LETTER ORDER ECF
NO. 25: For Appeal No. 14-2204; Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & MMortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
On December 3, 2014; And It Has Pasted Five (5)
Years. .
VI. Issue No. 6: Whether Honorable Judge Grimm’s
Assertion of Judicial Immunity Admissible in
the Civil Case
A. Issue No. 6; Enquiry:
54. Appellant By ISSUE NO. 6: Presents Enquiry
With Supporting Arguments and Exhibits For The
United States Fourth Circuit Court’s Review and
Consideration And This Enquiry And Arguments Are
Briefly Described Hereunder As Follows:
Whether Honorable Judge Grimm’s Assertion
Of Judicial Immunity Admissible In The
Civil Case
55. Appellant’s Arguments On Whether Honor­
able Judge Grimm’s Assertion Of Judicial Immunity;
Admissible In This Civil Case; And Appellant’s ISSUE
NO, 6; ARGUMENTS Are Provided In Response To
Honorable Judge Grimm’s Assertion Of Judicial
Immunity In ECF No. 18 at p.17-18.

App.62a
56. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Judicial Immunity; Is Not
Admissible In This Civil Case; Because, Honorable
Judge Grimm Is Legally Responsible To Complete
His LETTER ORDER ECF NO. 25: For Appeal No.
14-2204; Civil Case No. 8:13-cv-03707-PWG; Edokobi
v. M & M Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc. Entered On December 3,
2014; And It Has Pasted Five (5) Years: And That;
Honorable Judge Paul W. Grimm Did Not Provide
His Reason Or Reasons For His Refusal To His
LETTER ORDER ECF NO. 25: Entered On December
3, 2014; And It Has Pasted Five (5) Years.
57. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Judicial Immunity; Is Not
Admissible In This Civil Case; Because, Honorable
Judge Grimm Did Not Provide His Reason Or Reasons
For Not Completing His LETTER ORDER ECF NO.
25: For Appeal No. 14-2204; Civil Case No. 8:13-cv03707-PWG; Edokobi v. M & M Mortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
On December 3, 2014; And It Has Pasted Five (5)
Years: And That; Honorable Judge Paul W. Grimm
Did Not Provide His Reason Or Reasons For His
Refusal To Complete His LETTER ORDER ECF NO.
25; Entered On December 3, 2014; And It Has Pasted
Five (5) Years.
58. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Judicial Immunity; Is Not
Admissible In This Civil Case; Because, Judicial
Immunity Is Not Proper Defense To Protect Honorable
Judge Grimm From Completing His LETTER ORDER
ECF NO. 25: For Appeal No. 14-2204; Civil Case No.
8:13-cv-03707-PWG; Edokobi v. M & M Mortgage

App.63a

Services Inc., Juan Gonzalez; Mortgage Specialist, Inc.
Entered On December 3, 2014: And It Has Pasted
Five (5) Years.
59. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Judicial Immunity; Is Not
Admissible In This Civil Case; Because, Judicial
Immunity Cannot Be Used To Cover Honorable Judge
Grimm’s Unwillingness To Complete His LETTER
ORDER ECF NO. 25: For Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc. Entered On December 3, 2014; And It
Has Pasted Five (5) Years.
60. Appellant Argues That, Honorable Judge
Grimm’s Assertion Of Judicial Immunity; Is Not
Admissible In This Civil Case; Because, Judicial
Immunity Is Not Available To Protect Honorable
Judge Grimm’s Refusal To Complete His LETTER
ORDER ECF NO. 25: For Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc. Entered On December 3, 2014; And It
Has Pasted Five (5) Years.
61. Appellant By This Appeal Realleges Appel­
lant’s Five (5) Counts Of Causes Of Action Against
Honorable Judge Grimm Because; Honorable Judge
Grimm’s Assertion Of the Court Lacks Jurisdiction; Is
Not Admissible In This Civil Case; Because; The
Completion Of His LETTER ORDER ECF NO. 25 Is
Honorable Judge Grimm’s Responsibility And Not
The Court.
62. WHEREFORE, the foregoing considered;
Appellant By This Appeal Moves The United States

App.64a
Court of Appeal For The Fourth Circuit To Reverse
The U.S. District Court’s ORDER ECF NO. 18 Granting
ECF No. 12; Appellee’s Motion To Dismiss, And Deny
The Dismissing Of Appellant’s Civil Case Civil Case
No.8:19-cv-00905-GJH; Emmanuel Edokobi v. Paul
Grimm; Because, Honorable Judge Paul W. Grimm’s
Assertion Of Judicial Immunity; Is Not Admissible
In This Civil Case; Because; It Is His Legal Duty To
Complete His LETTER ORDER ECF NO. 25: For
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707-PWG;
Edokobi v. M & M Mortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc. Entered On Decem­
ber 3, 2014; And It Has Pasted Five (5) Years.
VII. Issue No. 7: Relief Requested
63. IDENTIFY THE PRECISE ACTION YOU
WANT THE COURT OF APPEALS TO TAKE:
64. Appellant By This Appeal Requests The
United States Court Of Appeal For the Fourth Circuit
To Reverse The U.S. District Court’s MEMORANDUM
OF OPINION AND ORDER (ECF NO. 18) Singed by
Honorable George J. Hazel And Entered On March 4,
2020; And To Reverse These Actions Described Here­
under In The Pertinent Part:
l)

To Reverse U.S. District Court’s The U.S.
District Court’s MEMORANDUM OF
OPINION AND ORDER ECF NO. 18
“ORDER” Granting ECF No. 12; Honorable
Paul W. Grimm’s Motion to Dismiss
Complaint ECF No. 12; For Civil Case
Emmanuel Edokobi v. Paul Grimm, 8:19-cv00905-GJH; Appeal No. 20-1271.

App.65a

2)

To Reverse U.S. District Court’s The U.S.
District Court’s MEMORANDUM OF
OPINION AND ORDER ECF NO. 18
“ORDER” Denying ECF No. 10; Appellant’s
Motion for Removal of the Civil Case No.
8:19-Cv-00248-PWG and Civil Case No.
8:19-CV-01071-PWG From Honorable Paul
W. Grimm ECF No. 10; Civil Case Emmanuel
Edokobi v. Paul Grimm; 8:19-cv-00905-GJH;
Appeal No. 20-1271.

3)

To Order Honorable Judge Grimm To
Complete His LETTER ORDER ECF NO.
25; For Appeal No. 14-2204; Civil Case No.
8:13-cv-03707-PWG; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc. Entered On Decem­
ber 3, 2014; And It Has Pasted Five (5)
Years.

65. Appellant By This Appeal Requests The
United States Court of Appeal for the Fourth Circuit
to Remand The Civil Case Emmanuel Edokobi v.
Paul Grimm, 8:19-cv-00905-GJH; Appeal No. 201271 So That; Honorable Judge Grimm Will Complete
His LETTER ORDER ECF NO. 25: For Appeal No.
14-2204; Civil Case No. 8:13-cv-03707-PWG; Edokobi
v. M & M Mortgage Services Inc., Juan Gonzalez;
Mortgage Specialist, Inc. Entered On December 3,
2014; And It Has Pasted Five (5) Years.

App.66a
Respectfully Submitted,
Emmanuel Edokobi
Pro se
2005 Stratton Drive
Potomac, Maryland 20854
Telephone Cell:
301-793-2882
E-mail:
emmanuel2040@gmail.com

